CERTIFICATE OF SERVICE
NO. TBD
Daniel Flores
Petitioner(s)
v.
Christian Pfeiffer, Warden
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the DANIEL
FLORES PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Viet Huy Nguyen
Office of the California Attorney General
300 South Spring Street
Los Angeles, CA 90013
Counsel for Christian Pfeiffer, Warden

Lucas DeDeus

September 11, 2020
SCP Tracking: Ahrony-401 Wilshire Blvd, 12th Floor-Cover White

